DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
444444444444444444444444444444444

MICHAEL WAYNE SHELLITO,
Petitioner,
vs.
MARK S. INCH, Secretary,
Florida Department of Corrections, et al.,
Respondents.
444444444444444444444444444444444
444444444444444444444444444444444444444

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
444444444444444444444444444

MARTIN J. McCLAIN
Florida Bar No. 0754773
Law Office of Martin J. McClain
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
FAX: (954) 564-5412
martymcclain@comcast.net
COUNSEL FOR PETITIONER

QUESTION PRESENTED
1.

Whether the petitioner has demonstrated that jurists

of reason could disagree with the federal courts’ resolution of
his constitutional claims or that such jurists could conclude
that the issues presented are adequate to deserve encouragement
to proceed further, thereby entitling petitioner to the issuance
of a COA?

i

NOTICE OF RELATED CASES
Per Supreme Court Rule 14.1(b)(iii), the following cases
relate to this petition:
Underlying Trial:
Circuit Court of Duval County, Florida
State of Florida v. Michael Wayne Shellito, Case No. 95-1449
CF
Judgement Entered July 21, 1995
Appellate Proceedings:
Florida Supreme Court (Case No. 60-86,931)
Shellito v. State, 701 So. 2d 837 (Fla. 1997)
Conviction and Sentence Affirmed: September 11, 1997
Petition for Writ of Certiorari:
United States Supreme Court
Shellito v. Florida, 118 S.Ct. 1537 (1998)
Certiorari Denied: April 20, 1998
Initial Postconviction Proceedings:
Circuit Court of Marion County, Florida
State of Florida v. Michael Wayne Shellito, Case No. 95-1449
CF
Judgement Entered August 12, 2010 (denying motion)
Appellate Proceedings:
Florida Supreme Court (Case No. SC10-2043)
Shellito v. State, 121 So. 3d 445 (Fla. 2013)
Affirmed: July 3, 2013
Appellate Proceedings:
Eleventh Circuit Court of Appeals (Case No. 20-13981)
Shellito v. Sec’y, Dept. of Corrs.
Order Denying COA: March 2, 2021

ii

TABLE OF CONTENTS
PAGE
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . .

i

NOTICE OF RELATED CASES . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . .

iii

TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . .

v

CITATION TO OPINION BELOW . . . . . . . . . . . . . . . .

1

STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . .

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED. . . . .

2

PROCEDURAL HISTORY. . . . . . . . . . . . . . . . . . . .

2

FACTS RELEVANT TO QUESTIONS PRESENTED . . . . . . . . . .

4

A.

The Trial . . . . . . . . . . . . . . . . . . .

4

B.

The Postconviction Proceedings. . . . . . . . .

6

1.

Trial Counsel. . . . . . . . . . . . . . .

6

2.

Richard Bays . . . . . . . . . . . . . . .

7

3.

Mental Health. . . . . . . . . . . . . . .

9

THE FEDERAL COURTS’ RULINGS . . . . . . . . . . . . . . . 13
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . 14
I.

THIS COURT SHOULD GRANT CERTIORARI TO REVIEW WHETHER
MR. SHELLITO WAS ENTITLED TO A CERTIFICATE OF
APPEALABILITY ON THE ISSUES HE RAISED. . . . . . . . 14
A.

Denial of a constitutional right. . . . . . . . 14

B.

Due process violations. . . . . . . . . . . . . 15

C.

1.

The State failed to disclose the benefits
that critical witness Richard Bays was
promised or correct his clearly false
testimony. . . . . . . . . . . . . . . . . 15

2.

The district court’s ruling is debatable . 19

Ineffective assistance of trial counsel . . . . 23

iii

1.

Trial counsel was deficient in representing
Mr. Shellito . . . . . . . . . . . . . . . 23

2.

The district court’s ruling is debatable . 30

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . 33
CERTIFICATE OF SERVICE. . . . . . . . . . . . . . . . . . 33

iv

TABLE OF AUTHORITIES
CASES
PAGE
Avilla v. Galaza,
297 F.3d 911 (91th Cir. 2002). . . . . . . . . . . . 22
Brecht v. Abrahamson,
507 U.S. 619 (1993). . . . . . . . . . . . . . . 12, 21
Douglas v. State,
141 So. 3d 107 (Fla. 2012) . . . . . . . . . . . . . 30
Johnson v. State,
616 So. 2d 1 (Fla. 1993) . . . . . . . . . . . .

8, 17

Kyles v. Whitley,
514 U.S. 419 (1995). . . . . . . . . . . . . . .

21-22

Miller-El v. Dretke,
537 U.S. 322 (2005). . . . . . . . . . . . . . . . . 14
Napue v. Illinois,
360 U.S. 264 (1959). . . . . . . . . . . . . . . . . 20
Shellito v. State,
701 So. 2d 837 (Fla. 1997) . . . . . . . . . . . . .
Shellito v. State,
121 So. 3d 445 (Fla. 2013) . . . . . . . . . . .

3

3, 30

Slack v. McDaniel,
529 U.S. 473 (2000). . . . . . . . . . . . . . . . . 14
Spargo v. State,
132 So. 3d 354 (Fla. 1st DCA 2014)

. . . . . . . . . 30

State v. Morrison,
236 So. 3d 204 (Fla. 2016) . . . . . . . . . . . . . 30
Strickland v. Washington,
466 U.S. 668 (1984). . . . . . . . . . . . . . . . . 31
United States v. Bagley,
473 U.S. 667 . . . . . . . . . . . . . . . . . . . . 19
Wiggins v. Smith,
539 U.S. 510 (2003). . . . . . . . . . . . . . . . . 31

v

DOCKET NO. _______
IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
444444444444444444444444444444444

MICHAEL WAYNE SHELLITO,
Petitioner,
vs.
MARK S. INCH, Secretary,
Florida Department of
Corrections, et al.,
Respondents.
444444444444444444444444444444444
444444444444444444444444444444444444444

PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
444444444444444444444444444

Petitioner, MICHAEL WAYNE SHELLITO, is a prisoner in
Florida. He urges this Honorable Court issue its writ of
certiorari to review the decision of the Eleventh Circuit
Court of Appeals.
CITATION TO OPINION BELOW
The Eleventh Circuit’s March 2, 2021, order denying Mr.
Shellito’s Application for COA is Attachment A to this
petition; the district court’s order denying Mr. Shellito’s
petition and application for COA is Attachment B to this
petition. The Florida Supreme Court’s opinion affirming the

1

state circuit court’s denial of postconviction relief is
Attachment C to this petition.
STATEMENT OF JURISDICTION
Petitioner invokes this Court’s jurisdiction to grant
the Petition for a Writ of Certiorari to the Eleventh
Circuit Court of Appeals on the basis of 28 U.S.C. Section
1254(1). The Eleventh Circuit entered its order denying Mr.
Shellito’s Application for COA on March 2, 2021.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Fifth Amendment to the Constitution of the United
States provides in relevant part:
No persons . . . shall . . . be deprived of life,
liberty or property, without due process of law.
The Sixth Amendment to the Constitution of the United
States provides in relevant part:
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury . . . and to be informed of the nature
and cause of the accusation; to be confronted with the
witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
The Fourteenth Amendment to the Constitution of the United
States provides in relevant part:
No State shall . . . deprive any person of life,
liberty, or property, without due process of law.
PROCEDURAL HISTORY
On February 9, 1995, a Duval County grand jury indicted Mr.
Shellito for one count of First Degree Murder (R. 1-3).
After a jury trial, Mr. Shellito was found guilty of First
Degree Murder on July 21, 1995 (R. 1209). The jury recommended
2

death on August 21, 1995. The trial court followed the jury’s
recommendation and sentenced Mr. Shellito to death on October
20, 1995 (R. 1564).
On direct appeal, the Florida Supreme Court affirmed Mr.
Shellito's convictions and sentences. Shellito v. State, 701 So.
2d 837 (Fla. 1997), cert. denied, 118 S.Ct. 1537 (1998).
On April 20, 1999, Mr. Shellito filed a preliminary Rule
3.851 motion which was subsequently amended (PC-R. 34-169, PC-R.
255-368, SPC-R. 1078-1184).
An evidentiary hearing was held on December 12, 2005, April
18-21, 2006, and June 12, 2006. Depositions to perpetuate
testimony were taken on June 13, 2006, and submitted to the
state circuit court for consideration.
On August 12, 2010, the state circuit entered an amended
order denying Mr. Shellito’s motion for postconviction relief
(PC-R. 556-95; 596-7).
The Florida Supreme Court affirmed as to the guilt phases
issues, but reversed as to the ineffective assistance of penalty
phase counsel and remanded for a new penalty phase. Shellito v.
State, 121 So. 3d 445 (Fla. 2013).
Mr. Shellito was re-sentenced to life without the
possibility of parole on July 14, 2017.
On July 11, 2018, Mr. Shellito, through pro bono counsel
filed a petition for writ of habeas corpus relating to his
conviction for First Degree Murder (Doc. 1).
On July 31, 2020, the district court entered its order
denying Mr. Shellito’s petition (Doc.17). At the conclusion of
3

the order, the court stated that a certificate of appealability
was denied (Doc. 17). Judgment was entered on August 3, 2020
(Doc. 18).
On November 18, 2020, Mr. Shellito filed an application for
COA with the Eleventh Circuit Court of Appeals. On March 2,
2021, the Eleventh Circuit denied Mr. Shellito’s application.
FACTS RELEVANT TO QUESTIONS PRESENTED
A.

THE TRIAL
At trial, the prosecution presented evidence that on the

night that the victim was shot, Mr. Shellito attended a party at
the residence of Steven Gill. In the early morning hours of
August 31, 1995, Mr. Shellito, Gill and Gill’s then-girlfriend,
Sunshine Turner, left the party to take Turner home (T. 481-2).
Turner testified that during the drive to her house, Gill
and Mr. Shellito discussed needing to work and make some money;
though they never said it, Turner inferred that they were going
to rob someone (T. 484-5). A few blocks from her house, Gill
dropped Mr. Shellito off and then took Turner home (T. 485).
At approximately 4:30 a.m., state witness, Michael Green,
heard arguing outside of his home (T. 461). He looked out the
window and saw a young man fall over near his fence (T. 462).
There was also a small, white pick-up truck present, but he
could not describe the occupants (Id.).
According to defense witness, John Bennett, he too lived
near where the shooting occurred and heard noises in the early
morning hours of August 31, 1995 (T. 827). And, he too looked
out his window. He saw a truck and the silhouette of an
4

individual who entered the drivers’s side of the truck and drove
away (T. 829-30).
Shortly thereafter, Gill and Mr. Shellito returned to the
Gill residence, together (T. 429). Richard Bays told the jury
that upon their arrival, Mr. Shellito informed them that he had
shot someone (T. 430). Bays was the only witness to testify that
he saw Mr. Shellito with a firearm before he left with Gill and
Turner in the early morning hours of August 31, 1995 (T. 424).
Later that day, yet another party occurred at the Gill
residence. Several teenagers again congregated to consume
alcohol and smoke marijuana. Theresa Ritzer and Laterio Copeland
told the jury that sometime during the party, Mr. Shellito
confessed to shooting the victim earlier that day (T. 708, 759).
In the early morning hours of September 1,1995, law
enforcement raided the Gill residence (T. 560). Officer Robert
Hurst testified that during the raid, Mr. Shellito left the
residence through a bedroom window (T. 563-4). Despite warning
him to remain at the scene, Mr. Shellito ran (T. 564). Officer
Hurst released his dog, who caught and bit Mr. Shellito (T. 5656). As Officer Hurst approached, he saw Mr. Shellito with a
firearm, which was pointed at the dog (T. 568). Mr. Shellito was
shot several times by law enforcement (T. 573).
The firearm that was found a few feet from Mr. Shellito
upon his arrest matched the casing that was found at the scene
of the shooting the previous morning (T. 813).
On Mr. Shellito’s behalf, the defense presented the
testimony of Jabreel Street, who had been incarcerated with Bays
5

at the Duval County Jail1 (T. 864). Street testified that Bays
had asked him to “jump on” Mr. Shellito’s case; i.e., learn of
information about the case and then provide it to the State as
if it had come from Mr. Shellito (T. 865). Street testified that
Bays had some paperwork in his cell with Mr. Shellito’s name on
it – it looked like a police report (Id.). Bays gave Street
information about Mr. Shellito’s case to use, but Street did not
want to “jump on” the case (T. 867).
Also, Mr. Shellito’s mother and father testified that
Steven Gill told Mrs. Shellito that he had confessed to his
attorney that he had killed the victim, but that he would not
admit that to law enforcement or the prosecution (T. 962-4, 9989).
B.

POSTONVICTION PROCEEDINGS
1.

Trial Counsel

A few weeks after Mr. Shellito was indicted for the first
degree murder of Sean Hathorne, Refik Eler was appointed to
represent him (SPC-R. 2047). Eler testified that the theory of
defense as to the guilt phase was that Gill “was the shooter”
(SPC-R. 2067), and Mr. Shellito was the scapegoat (SPC-R. 2069).
In this regard, though Eler had wanted to present the
statements Gill made to law enforcement, he failed to call
Detective Hinson for no strategic reason (SPC-R. 2075).
Likewise, Eler had no strategic reason for failing to obtain a

1

Bays had been arrested the same night as Mr. Shellito for
his (Bays) participation in two armed robberies that occurred
hours before the raid on the apartment.
6

ruling as to whether the State would be permitted to elicit
testimony from Theresa Ritzer regarding an alleged threat Mr.
Shellito made to her if he impeached her with her prior
inconsistent statements.2 Rather, Eler admitted that he simply
“didn’t anticipate” the State’s rebuttal evidence (SPC-R. 2179).
As to Bays, Eler wanted the jury to believe that he had a
grudge against Mr. Shellito (SPC-R. 2181). And while Eler
attempted to impeach Bays about his pending criminal charges, he
had no idea that on the day that jury selection began in Mr.
Shellito’s case, the State withdrew its efforts to classify Bays
as a habitual violent felony offender (SPC-R. 2182). He would
have used that information had he had it (SPC-R. 2184).
2.

Richard Bays

The trial prosecutor, Assistant State Attorney Jay Plotkin
testified that Bays had been charged with armed robbery with a
firearm by an information, dated September 20, 1994, along with
Mr. Shellito (SPC-R. 3290). A week later, Bays was served with a
notice of intent to prosecute him as a career criminal by which
Bays would have been facing a life sentence, with a fifteen year
minimum mandatory, if convicted (SPC-R. 3290-1). Plotkin sent
Bays a notice of withdrawal of the habitual violent felony
offender on July 17, 1995, the day jury selection began in Mr.
Shellito’s capital case (SPC-R. 3291), in which Bays was

2

At trial, Ritzer testified that after Shellito confessed to
shooting the victim, he pointed a gun at her head and told her
that he would kill her if she ever repeated what he had told her
(R. 790-1).
7

expected to be a key prosecution witness in establishing Mr.
Shellito’s guilt.
At the evidentiary hearing, Plotkin attempted to explain
why Bays could not be prosecuted as a habitual violent felony
offender citing an opinion that had been issued eighteen months
prior to Bays’ being charged as a habitual violent felony
offender and claiming that he had “made a mistake” (SPC-R. 32924).3 Bays’ case was continued several times (SPC-R. 3301-3).
After his testimony at Mr. Shellito’s capital case, Plotkin and
Bays negotiated a deal where Bays pleaded to a lesser charge –
accessory after the fact to armed robbery, and he received 13
months, less than what he had already served in jail awaiting
trial (SPC-R. 3297-8). Plotkin admitted that he made a conscious
decision to dispose of Bays’ case after the Shellito case (SPCR. 3302). That is so because then the cooperating witness, in
this case Bays, will testify at (Mr. Shellito’s) trial, that
there is no deal which is what the State prefers (SPC-R. 3306).
Indeed, on cross-examination Plotkin admitted:
A: There was no specific deal with Mr. Bays.
Q: Was the only deal with Mr. Bays that you
testify truthfully and we’ll talk about it later?
A: He knew that if he testified truthfully that
would be taken into consideration.

3

A reading of the case Plotkin relied upon in “making a
mistake” shows that he, in fact, did not make a mistake and Bays
was correctly charged as a habitual violent felony offender. See
Johnson v. State, 616 So. 2d 1 (Fla. 1993).
8

(SPC-R. 3328).4
Plotkin also conceded that he did not correct Bays’ false
testimony at Mr. Shellito’s trial as to what possible sentence
Bays was facing (SPC-R. 3345).
After Mr. Shellito’s trial, Bays, who was a key witness,
was asked how he had been released so quickly on the charges he
had (SPC-R. 2886-7). Bays responded that it was either “him or
me”, referring to Mr. Shellito and admitted that he got a “deal”
(SPC-R. 2887).
3.

Mental Health

Dr. William Riebsame conducted some neuropsychological
testing of Mr. Shellito, reviewed voluminous background records
and conducted a clinical interview with him. Likewise, Dr. Craig
Beaver conducted neuropsychological testing. Drs. Beaver and
Riebsame’s neuropsychological testing was consistent with the
1991 neuropsychological testing that showed impairment in Mr.
Shellito’s executive functioning, i.e., impairment with impulse
control, problem solving, planning and foresight (SPC-R. 2315,
3153, 3158-9). Indeed, Mr. Shellito falls in the third
percentile as to his executive functioning (SPC-R. 2315). Dr.
Riebsame described Mr. Shellito’s organic mental disorder as
“ominous” because it is “who they are by their biology” (SPC-R.
2442). Dr. Beaver explained that brain damaged individuals
experience “a lot of mood variability” and they are “less able

4

Plotkin believed that Bays knew he could help himself by
assisting the State (SPC-R. 3360).
9

to cope or handle stressful or difficult situations” (SPC-R.
3159).
Dr. Riebsame diagnosed Mr. Shellito with bipolar disorder,
not otherwise specified, alcohol dependence5, cannabis dependence
and organic brain disorder (SPC-R. 2321, 2323). Dr. Riebsame
believed that the bipolar was likely due to the organic brain
damage (Id.).
In addition to the mental health mitigation, trial counsel
could have easily learned that Mr. Shellito turned to drugs and
alcohol at a young age (SCP-R. 2545, 2872, 2881). In his teenage
years, Mr. Shellito consumed alcohol and marijuana on a daily
basis (SPC-R. 2774, 2872-3, 2881-2, 2902-3, 2924). He would
drink until he passed out (SPC-R. 2774).
Mr. Shellito moved in with his sister, Rebecca, when he was
seventeen. She recalls that he had a drinking problem and he had
difficulty controlling himself when drinking (SPC-R. 2835). He
also smoked marijuana on a daily basis while living with her
(SPC-R. 2836).

5

Dr. Riebsame explained that it is not uncommon for
individuals who suffer from organic brain damage to use alcohol
and drugs to self medicate, particularly when their environment
offers and supports it, like Mr. Shellito’s (SPC-R. 2330). That
is so because alcohol and drugs, like marijuana, calms
individuals, like Mr. Shellito, though making him further
impaired (Id.). Indeed, Mr. Shellito’s alcohol and drug
consumption would cause him to become even more impulsive (SPC-R.
2469, see also SPC-R. 3161). Dr. Elias Sarkis concurred with Dr.
Riebsame’e explanation (SPC-R. 2974-5).
10

Rebecca Allen6 had lived with Mr. Shellito and his
girlfriend in the early part of 1994 (SPC-R. 2780). Allen
testified that Mr. Shellito was emotional and moody (SPC-R.
2780, 2903). Mr. Shellito would get upset if she argued with
him; “it was like an emotional roller coaster being around him”
(Id.). When Mr. Shellito consumed alcohol and marijuana, which
was a daily occurrence, his emotions intensified (SPC-R. 2781,
2903).
On August 30, 1995, just hours before Mr. Hathorne was
shot, Quinn Edwards and Mr. Shellito were drinking and smoking
marijuana. Edwards testified about what he knew about the hours
preceding the shooting:
A: [Jennifer] had to go check in, but we weren’t
allowed around her parents. So we was waiting for
Jennifer to come back and pick us up. She never came
back.
Q: Did she – what do you mean? She just – where
were you guys? Where did she leave you?
A: She just dropped us off and said she’d be
back. It was in the neighborhood. When she didn’t show
back up, we ended up getting transportation on our
own.
Q: What does that mean?
A: We took a van.
Q: You broke into a van and . . .
A: Yes, ma’am.
* * *

6

Allen specifically requested to meet with Eler about her
knowledge of Mr. Shellito, including how emotional he was and how
he was a good friend to her (SPC-R. 2783-4). Eler met with Allen
and she provided him with the information she had about Mr.
Shellito (Id.). She was not asked to testify.
11

Q: . . .So when you were with Mr. Shellito the
night that you stole the van, was he drinking that
night?
A: Yes, ma’am.
Q: What was he drinking?
A: He was drinking Schlitz Malt. He was drinking
quarts of beer.
Q: After you got the van, where did you two go?
A: We went to Steve Gill’s in Colonial Forest.
...
(SPC-R. 2905-6). Edwards also testified that Mr. Shellito was
“drunk” and had been smoking marijuana (SPC-R. 2907-8).
THE FEDERAL COURTS’ RULINGS
In its order denying Mr. Shellito’s claim that his right to
due process had been violated due to the prosecutor’s conduct in
dealing with Richard Bays, the district court found that Mr.
Shellito had not “rebutted with clear and convincing evidence
the state court’s determination that there was no promise or
agreement entered into between Bays and the State whereby Bays’
testimony in Petitioner’s murder case was agreed to be offered
in consideration for the state’s disposition of Bays’ armed
robbery case.” (Doc. 17, 17). The district court focused on the
fact that the “agreement occurred after the disposition of Mr.
Shellito’s case” (Doc. 17, 17).
And, while the district court recognized, Bays’ testimony
was false (Doc. 17, 21), the court relied on the other evidence
to determine that it was not significant, citing to Brecht v.
Abrahamson, 507 U.S. 619 (1993).

12

As to Mr. Shellito’s claim of ineffective assistance of
counsel, the district court found that Eler “had significant
experience in death penalty proceedings.” (Doc. 17, 24; see also
Doc. 17, 32). And, specifically as to the allegation concerning
the testimony of John Bennett, the district court found that
Bennett’s trial testimony about the individual entering the
driver’s side of the vehicle was more “certain and beneficial”
than the impeachment evidence (Doc. 17, 35).
As to trial counsel’s failure to present the testimony of
defense investigator Don Marx to counter the State’s impeachment
of Mr. Shellito’s mother, the district court deferred to the
Florida Supreme Court’s determination that trial counsel had
made a strategic decision not to present the evidence.
The district court also concluded that a defense of
intoxication was “incompatible with the trial strategy” (Doc.
17, 40).
Finally, as to trial counsel’s unreasonably opening the
door to highly prejudicial testimony from Theresa Ritzer, the
district court determined that the Florida Supreme Court’s
ruling was not contrary to or an unreasonable application of
Strickland (Doc. 17, 42).
In its order denying Mr. Shellito a COA, the district court
stated: “Upon due consideration, this Court will deny a
certificate of appealability.” (Doc. 17, 49 n.13).
In its order denying Mr. Shellito’s application for COA,
the Eleventh Circuit Court of Appeals simply stated that Mr.

13

Shellito “failed to make a substantial showing of the denial of
a constitutional right.”
REASONS FOR GRANTING THE WRIT
I.

A.

THIS COURT SHOULD GRANT CERTIORARI TO REVIEW WHETHER
MR. SHELLITO WAS ENTITLED TO A CERTIFICATE OF
APPEALABILITY ON THE ISSUES HE RAISED.

Denial of a constitutional right
As this Court has explained, a state prisoner whose habeas

petition has been denied by a federal district court meets the
standard for a COA if he shows that “reasonable jurists could
debate whether (or, for that matter, agree that) the petition
should have been resolved in a different manner or that the
issues presented [are] ‘adequate to deserve encouragement to
proceed further.’” Slack v. McDaniel, 529 U.S. 473, 484 (2000)
(quoting Barefoot v. Estelle, 463 U.S. 880, 893 (1983)). That
is, a COA must issue where the petitioner “demonstrate[s] that
reasonable jurists would find the district court’s assessment of
the constitutional claims debatable or wrong.” Id. Given that
the Eleventh Circuit failed to conduct an appropriate overview
of the claims and a general assessment of their merits, MillerEl v. Dretke, 537 U.S. 322, 336 (2005), Mr. Shellito submits
that this Court should grant certiorari to address whether on
the record in this case, he has established his entitlement to a
COA.
Mr. Shellito submits that jurists of reason could find that
his petition states a valid claim of the denial of a
constitutional right. Mr. Shellito asserted in his petition that

14

his right to due process was violated and that he was denied his
right to effective assistance of counsel.
B.

Due process violations
1.

The State failed to disclose the benefits that
critical witness Richard Bays was promised or correct
his clearly false testimony.

The State clearly violated Mr. Shellito’s right to due
process. Indeed, at the evidentiary hearing, through the
testimony of ASA Plotkin, the State conceded that Richard Bays
testified falsely. Bays’ testimony was false in two respects:
First, Bays testified that he was facing life in prison due to
his status as a habitual offender. He was not. Second, Bays
testified that he was not receiving any benefit for his
testimony. However, he was aware that he would receive a benefit
and he did in fact receive a benefit.
Seven days after Bays was charged with armed robbery,
Plotkin filed a Notice of Intent to prosecute Bays as a career
criminal (SPC-R. 3290, Def. Ex. 29). Charging Bays as a career
criminal meant that he was facing a life sentence for the
charges he was facing (Id.).
However, the day before Bays testified at Mr. Shellito’s
capital trial, Plotkin filed a pleading withdrawing the notice
to classify Bays as a career criminal.7 The basis of the
withdrawal was that:

7

The timing of the notice of withdrawal is equally
exculpatory in that the defense could have shown that on the eve
of testifying, the prosecutor extended a benefit to Bays in
exchange for his testimony.
15

Pursuant to Johnson [v. State, 616 So. 2d 1 (Fla.
1993)] Aggravated Battery was not a proper qualifying
offense on December 10, 1990 (the date of the
Defendant’s conviction) because the legislature
violated the dual subject rule when it enacted
legislation including Aggravated Battery as an offense
that would qualify a defendant as a HVFO.
(Def. Ex. 29). Mr. Shellito’s trial counsel was not served with
a copy of the pleading and he was unaware that the notice had
been withdrawn (SPC-R. 2182, 2598).
The Johnson opinion had been decided on January 14, 1993,
over eighteen months before Plotkin filed the notice of intent
as to Bays. Plotkin spent “a year or so” prosecuting repeat
offenders in Judge Olliff’s courtroom and was a division chief
in Judge Southwood’s division when Judge Southwood was also
handling repeat offenders (Deposition, June 13, 2006, p. 4).
Plotkin’s only explanation for the withdrawal was that he had
made a mistake in filing the notice of intent in September, 1994
(SPC-R. 3295).8 But, Plotkin did not make a mistake in attempting
to treat Bays as a career criminal because Johnson did not
disallow defendants from being habitualized if the prior used to
habitualize fell between October 1, 1989 - May 2, 1991, but
rather effected only those cases where the current offense –
where a prosecutor wanted to habitualize a defendant – occurred
between October 1, 1990 - May 2, 1991.9 Thus, the window period
8

Considering Plotkin’s experience, his explanation rings
hollow.
9

If a
aggravated
1991, that
shut as of

defendant committed a crime today, and had a previous
battery that occurred between October 1, 1989 - May 2,
defendant could be habitualized. The window period
May 2, 1991 and was not a concern at the time Bays was
(continued...)
16

did not effect the prior aggravated batteries, like Bays’. See
Johnson, 616 So. 2d at 4 (“We hold that chapter 89-280 violates
article III, section 6, of the Florida Constitution. However, we
conclude that chapter 91-44's bienniel reenactment of chapter
89-280, effective May 2, 1991, cured the single subject
violation as it applied to all defendant’s sentenced under
section 775.084 whose offenses were committed after that
date.”). The reason used to justify the withdrawal of the intent
to classify Bays as a career criminal was false.
At Mr. Shellito’s capital trial Bays testified that he was
facing a life sentence on his pending charges (T. 434). He was
not. Plotkin who knew that Bays was testifying falsely sat mute.
Bays also testified that he was not promised anything for
his testimony at Mr. Shellito’s trial (T. 434). Again, Bays’
testimony was untruthful, but Plotkin sat mute.
At the evidentiary hearing Plotkin testified that he had
made a conscious decision to dispose of Bay’s case after Mr.
Shellito’s so that there would be no specific deal for the jury
to hear (SPC-R. 3302, 3332-3). Yet, Bays knew that if he
testified “truthfully” that would be taken into consideration.
(SPC-R. 3329). In fact, Bays testimony was taken into
consideration – a week after Mr. Shellito was sentenced to
death, Bays entered a plea to accessory after the fact and
received 13 months in jail, he was released that same day (SPC-

9

(...continued)
charged with armed robbery and the prosecutor filed a notice to
prosecute him as a career criminal.
17

R. 3297-8, Def. Ex. 45, 46, 49). Plotkin failed to notify trial
counsel or the jury that Bays knew he would receive
consideration in exchange for his testimony.
In addition, following Mr. Shellito’s trial, Bays was asked
how he had been released so quickly on the charges he had (SPCR. 2886-7). Bays responded that it was either “him or me”,
referring to Mr. Shellito and admitted that he got a “deal”
(SPC-R. 2887).
Bays was a critical witness for the prosecution. Bays was
the only witness to place the murder weapon in Mr. Shellito’s
hands before the crime.10 He also testified that Mr. Shellito
admitted to shooting the victim.
Furthermore, the evidence of the deal and Bays’ false
testimony supports defense witness, Jabreel Street’s trial
testimony that Bays was trying to recruit jailhouse snitches to
provide testimony against Mr. Shellito in order to reduce his
time. Bays’ false testimony creates serious doubt about his
credibility and the truth of his entire testimony.
Trial counsel testified at the evidentiary hearing that he
would have liked to have been provided the suppressed
information (SPC-R. 2182).

10

Who had the murder weapon prior to Gill and Mr. Shellito
leaving the residence was important because John Bennett and
Michael Green testified that a pick-up truck was present at the
scene of the shooting; Gill and Mr. Shellito left the party and
returned together; and Gill was described as acting “paranoid”
upon returning to the party.
18

2.

The district court’s ruling is debatable.

Mr. Shellito submits that jurists of reason would find it
debatable as to whether the district court was correct in its
rulings denying his petition.
In denying Mr. Shellito’s claim, the district court focused
on the fact that the “agreement occurred after the disposition
of Mr. Shellito’s case” (Doc. 17, 17). However, the district
court’s ruling is debatable among jurists of reason as its
decision is contrary to United States v. Bagley, 473 U.S. 667
(1985). In Bagley, this Court explained that a prosecutor must
reveal the possibility of a reward or benefit:
the possibility of a reward had been held out to [the
State witnesses] . . . This possibility of a reward
gave [the State witnesses] a direct, personal stake in
respondent’s conviction. The fact that the stake was
not guaranteed through a promise or binding contract,
. . . served only to strengthen any incentive to
testify falsely in order to secure a conviction.
473 U.S. at 683 (emphasis added).
In Mr. Shellito’s case, the trial prosecutor admitted that
he held out the possibility of a reward without guaranteeing what
specific benefits Bays would receive:
A: There was no specific deal with Mr. Bays.
Q: Was the only deal with Mr. Bays that you
testify truthfully and we’ll talk about it later?
A: He knew that if he testified truthfully that
would be taken into consideration.
(SPC-R. 3328).11 Plotkin also admitted that he made a conscious
decision to dispose of Bays’ case after the Shellito case (SPC-R.

11

Plotkin believed that Bays knew he could help himself by
assisting the State (SPC-R. 3360).
19

3302). That is because when the cooperating witness, in this case
Bays, will testify at (Mr. Shellito’s) trial, there is no deal
which is what the State prefers (SPC-R. 3306). Thus, there is
clear and convincing evidence that Bays knew the State intended
to reward him if he testified against Mr. Shellito. See also
Napue v. Illinois, 360 U.S. 264, 265-266 (1959).
Furthermore, it is indisputable that Bays’ testimony in Mr.
Shellito’s capital trial was false. Due to the State’s original
designation of Bays’ as a career criminal, he was facing a life
sentence, with a fifteen year minimum mandatory, if convicted
(SPC-R. 3290-1). However, after the withdrawal of the habitual
violent felony offender notice, Bays was no longer facing any
minimum mandatory sentence (SPC-R. 3291). So, when Bays testified
at the trial that he was facing the minimum mandatory sentence,
his testimony was categorically false. The State knew it was
false because the State had withdrawn the notice. Therefore,
overlooked by the district court was the State’s absolute
constitutional duty to correct Bays’ testimony. Indeed, had trial
counsel been aware that the State had withdrawn the notice the
day before Bays’ testimony, he certainly would have used both the
timing and the State’s “mistaken” understanding of the law to
establish that pressure was applied to Bays from the moment he
was questioned on the night of the crime.
Though the district court characterized the State’s behavior
as creating a “nebulous expectation of help” and relies on Bays’
consistent statements about the crime (Doc. 17, 19), to find that
no due process violation occurred, Mr. Shellito submits that
20

Plotkin’s testimony, in and of itself, establishes that a due
process violation occurred. And, because Bays was a critical
prosecution witness, it was imperative that the jury be aware of
the interactions between the State and Bays in order to
accurately gauge the reliability of his testimony.
Moreover, as the district court recognized, Bays’ testimony
was false (Doc. 17, 21). However, in assessing the impact of the
testimony, the district court overlooked the fact that Bays was
the only witness to place the murder weapon in Mr. Shellito’s
hands before the crime. He also testified that Mr. Shellito
admitted to shooting the victim. Thus, it was imperative that Mr.
Shellito establish the unreliability of his testimony. Mr.
Shellito’s defense hinged on the evidence that Steven Gill fired
the single, fatal shot at the victim. Mr. Shellito’s defense was
supported by the eyewitness testimony, so Bay’s untruthfulness,
expectation of benefits and relationship with Gill would have
severely undermined his testimony.
And, specifically as to the Giglio analysis, it is the
State’s burden to demonstrate that the there was no reasonable
likelihood that the false testimony affected the judgement of the
jury. In light of Bays’ inculpatory testimony, Mr. Shellito
submits that the State did not meet this burden.
Finally, the district court’s reference to Brecht v.
Abrahamson, 507 U.S. 619 (1993), overlooks the fact that it was
not Shellito’s burden to satisfy the Brecht standard and is
debatable because it is contrary to this Court’s opinion in Kyles
v. Whitley, 514 U.S. 419, 435-36 (1995):
21

Third, we note that, contrary to the assumption made by
the Court of Appeals, 5 F. 3d, at 818, once a reviewing
court applying Bagley has found constitutional error
there is no need for further harmless-error review.
Assuming, arguendo, that a harmless-error enquiry were
to apply, a Bagley error could not be treated as
harmless, since “a reasonable probability that, had the
evidence been disclosed to the defense, the result of
the proceeding would have been different,” 473 U.S., at
682 (opinion of Blackmun, J.); id., at 685 (White, J.,
concurring in part and concurring in judgment),
necessarily entails the conclusion that the suppression
must have had “‘substantial and injurious effect or
influence in determining the jury’s verdict,’” Brecht
v. Abrahamson, 507 U. S. 619, 623 (1993), quoting
Kotteakos v. United States, 328 U. S. 750, 776 (1946).
This is amply confirmed by the development of the
respective governing standards. Although Chapman v.
California, 386 U. S. 18, 24 (1967), held that a
conviction tainted by constitutional error must be set
aside unless the error complained of “was harmless
beyond a reasonable doubt,” we held in Brecht that the
standard of harmlessness generally to be applied in
habeas cases is the Kotteakos formulation (previously
applicable only in reviewing nonconstitutional errors
on direct appeal), Brecht, supra, at 622-623. Under
Kotteakos a conviction may be set aside only if the
error “had substantial and injurious effect or
influence in determining the jury’s verdict.”
Kotteakos, supra, at 776. Agurs, however, had
previously rejected Kotteakos as the standard governing
constitutional disclosure claims, reasoning that “the
constitutional standard of materiality must impose a
higher burden on the defendant.” Agurs, 427 U.S., at
112. Agurs thus opted for its formulation of
materiality, later adopted as the test for prejudice in
Strickland, only after expressly noting that this
standard would recognize reversible constitutional
error only when the harm to the defendant was greater
than the harm sufficient for reversal under Kotteakos.
In sum, once there has been Bagley error as claimed in
this case, it cannot subsequently be found harmless
under Brecht.
(Footnote omitted)(emphasis added). See also Avilla v. Galaza,
297 F.3d 911, 918, fn 7 (9th Cir. 2002)(“We need not conduct a
harmless error review of Strickland violations under Brecht v.
Abrahamson, 507 U.S. 619, 637, 113 S.Ct. 1710, 123 L.Ed.2d 353
(1993), because ‘[t]he Strickland prejudice analysis is complete
22

in itself; there is no place for an additional harmless-error
review.’ Jackson v. Calderon, 211 F.3d 1148, 1154 n. 2 (9th Cir.
2000), cert. denied., 531 U.S. 1072, 121 S.Ct. 764, 148 L.Ed.2d
665 (2001).”
The Brady and Giglio violations which occurred at Shellito’s
capital trial are debatable among jurists of reason.
C.

Ineffective assistance of trial counsel
1.

Trial counsel was deficient in representing Mr.
Shelltio.

Trial counsel was ineffective at Mr. Shellito’s capital
trial. Due to his inexperience and the limited time to prepare
for the capital trial some witnesses listed by the State in
discovery were never deposed or spoken to and other key witnesses
were deposed only a few weeks before trial began.12 The hurried
nature of the preparation caused trial counsel to overlook
critical information which severely prejudiced Mr. Shellito. For
example, trial counsel testified that the defense at trial was
that Mr. Shellito did not commit the crime – that Steven Gill
did. In fact, in his opening statement, trial counsel told the
jury that Mr. Shellito was the perfect scapegoat and that when
Gill testified they would be hearing from the person who killed
the victim (T. 378). Gill never testified at Mr. Shellito’s trial
– instead he invoked his fifth amendment privilege to be free
from self-incrimination (T. 952).13 Despite this development,
12

These witnesses included Theresa Ritzer, Detective
Highsmith, Sunshine Turner, and Sergeant Justice.
13

Gill’s attorney invoked his fifth amendment privilege
(continued...)
23

trial counsel had ample opportunity to introduce a great deal of
evidence that would have placed serious suspicion on Gill and
would have supplied reasonable doubt as to Mr. Shellito’s
involvement in the crime.
Trial counsel failed to elicit testimony that would have
placed suspicion directly on Gill. John Bennett testified at
trial that he was awoken by tires squealing and that he only saw
a silhouette moving around in a truck before it drove away (T.
829). This testimony was inconsistent with Bennett’s deposition,
in which he testified that he not only heard tires squealing, but
heard a shot before seeing someone get in a truck, which then
drove away (T. 928). Bennett’s deposition indicated that the
truck, presumably Gill’s truck, and presumably Gill himself, were
present when the shots were fired.14 This fact combined with
Bennett’s testimony that he saw a silhouette enter the driver’s
side of the truck, was critical evidence that suggested Gill was
actually the shooter, not Mr. Shellito.
Trial counsel further failed to elicit substantial
additional testimony against Gill. Migdalia Shellito, Mr.
Shellito’s mother, testified at trial that Gill confessed to her
(T. 963-64). Mrs. Shellito further testified that she informed
trial counsel of this confession, as well as tried to call the
lead detective on the case, and spoke to courtroom personnel on

13

(...continued)
against self incrimination (T. 952). The jury was not present
when this occurred (T. 952).
14

Turner had indicated that Gill let Mr. Shellito out of the
truck and he was on foot.
24

the matter (T. 972, 973, 981-92). To refute this testimony, the
State Attorney called a court clerk, Debbie Dlugosz, who
testified that Mrs. Shellito never told her another individual
confessed to the murder (T. 1017). Mrs. Shellito’s testimony was
dismissed by the prosecutor who claimed there was no one to
substantiate her story. But, this was untrue. Mrs. Shellito had
spoken to the investigator for trial counsel about Gill’s
confession on April 10, 1995, a full three months before trial,
yet trial counsel failed to use information he had in his
possession to substantiate the testimony (Def. Ex. 50).
Also, trial counsel attempted to question Detective Hinson,
who spoke at length to Gill, regarding the statements that Gill
made about the night of the crime. Counsel asked Detective Hinson
what Gill told him, and was unable to fully examine the witness
regarding the contents of Mr. Gill’s statements because the
statements were considered hearsay (T. 846). Trial counsel was
only able to elicit that Det. Hinson was concerned about the
truthfulness of Gill, as he was with any witness he interviewed
(T. 857). But, even when Gill became unavailable as a witness,
counsel failed to recall Detective Hinson to testify as to the
statements Gill had made regarding his role in the crime. Counsel
would have been able to introduce the now-admissible statements
made by Gill about the night of the crime. Trial counsel had no
recollection of any strategic reason for not re-calling Detective
Hinson (SPC-R. 2075).
Trial counsel was also ineffective in failing to present
evidence of Mr. Shellito’s intoxication in the hours preceding
25

the crime and also in the hours preceding his arrest. Much
evidence was available at the time of trial that Mr. Shellito was
severely addicted to alcohol and marijuana (SPC-R. 2774, 2781,
2835-6, 2872-3, 2881-2, 2902-3, 2924), and he was drinking
alcohol and smoking marijuana close in time to the crime (T. 470,
SPC-R. 2907-8, 2913-4, Def. Ex. 2). Trial counsel testified at
the evidentiary hearing that there was no question that Mr.
Shellito was using drugs and alcohol shortly before the crime
(SPC-R. 2570).
Counsel could have used the evidence of Mr. Shellito’s
intoxication in a number of significant ways at trial. Counsel
failed to develop a defense of voluntary intoxication and failed
to present evidence of intoxication to rebut specific intent and
premeditation. Witnesses were available who could have testified
to Mr. Shellito’s intoxication on the night of the crime, but
defense counsel failed to call these witnesses to the stand.
Contrary to trial counsel’s testimony, it would not have been
inconsistent to maintain that Gill committed the crime and not
Mr. Shellito (SPC-R. 2570). Trial counsel could have presented
evidence that his client was too intoxicated to drive or shoot
the victim, thus, it must have been Gill.
Likewise, because the State introduced evidence about Mr.
Shellito’s behavior at the time of his arrest, trial counsel
could and should have introduced evidence to explain that
behavior. Mr. Shellito was intoxicated (SPC-R. 2775, 2884, Def.
Exs. 2, 24).

26

Trial counsel failed to consult an expert about Mr.
Shellito’s drug and alcohol use and what import those issues had
to the guilt phase of the trial.15 At the evidentiary hearing,
mental health experts explained that Mr. Shellito’s brain damage
caused him to be impulsive, exercise poor judgment and have less
control of his mood or management of his behavior (SPC-R. 2315,
2963, 3153, 3158-9). Thus, when Mr. Shellito used alcohol and
marijuana, which he was drawn to because of his neurological
impairments, his control was further diminished (SPC-R. 2330,
2469, 2974-5, 3161). Mr. Shellito’s intoxication preceding the
crime changes the picture of what actually occurred on that
evening.
Trial counsel was also ineffective in cross-examining
witnesses. Throughout the trial, counsel failed to impeach
witnesses with inconsistent statements. However, in the case of
witness Teresa Ritzer, trial counsel opened the door to highly
prejudicial testimony. Ritzer testified before the jury that
following the crime, Mr. Shellito possessed a firearm and had
confessed to shooting the victim in a failed robbery (T. 759).
Ritzer also testified that when Mr. Shellito told her the story
his voice was “kind of like he was enjoying it, like he was
proud.” (T. 760).

15

Trial counsel testified that he relied on an expert to
assist him with issues concerning mental state, yet he failed to
consult his expert about Mr. Shellito’s intoxication preceding
the crime or the arrest would have the elements of the charges
(SPC-R. 2050-1).
27

Trial counsel had deposed Ritzer shortly before trial was
scheduled to begin. During her deposition she informed trial
counsel that she had provided a written statement to law
enforcement upon being brought to the Police Memorial Building on
September 1, 1994 (T. 784). Plotkin had not previously produced
this statement in discovery and did not have the statement for
trial counsel during the deposition (Id.).
The day before Ritzer testified, and after Mr. Shellito’s
capital trial commenced, Prosecutor Plotkin provided trial
counsel with Ritzer’s initial statement in which she told law
enforcement: “she never saw or heard anything suspicious . . . ”
the night of the crime (T. 764). Trial counsel asked Ritzer about
her statement and the fact that she did not tell law enforcement
about Mr. Shellito’s “confession” (T. 764). On re-direct, the
State was allowed to ask Ritzer why she changed her statement:
Q: What was it about Mr. Shellito’s life or death
that mattered to you with regard to giving a statement
to the police?
A: Because he had threatened me, threatened my
life earlier that if I talked for -Q: And when you say threatened your life earlier,
when are you referring to?
A: Earlier that night.
Q: And what did he do with regard to threatening your
life?
A: He held a gun to my head.
Q: And can you tell the members of the jury what
he said to you when he held the gun to your head?
A: He told me that if I talked then he would kill
me because he had killed before.

28

Q: And when – when in regards to when he was
telling you about shooting someone did that happen?
A: Right before he told me about the way he
murdered the guy.
Q: Now ma’am, what was your state of mind when you
refused to give the police a statement?
A: I was scared.
(T. 790-1).
Because of the State’s untimely production of the statement,
trial counsel admittedly did not know how Ritzer would explain
the change in her statements (SPC-R. 2590-1).16 However, trial
counsel should have moved for a Richardson hearing at which he
could have moved the trial court to exclude the testimony of
Ritzer altogether. Or, at a minimum, trial counsel should have
requested a continuance to depose Ritzer about the statement.
Rather than find out Ritzer’s explanation before asking her any
questions, trial counsel blindly asked her about her original
statement.

Yet, trial counsel never even objected to the

testimony because it was more prejudicial than probative. Trial
counsel’s performance was deficient.
The prejudice from trial counsel’s performance is obvious –
the jury heard that Mr. Shellito placed a gun to a witness’ head
and threatened her life while also making the statement that he

16

Clearly, the State knew what Ritzer’s explanation would be
for changing her statement, because at the conclusion of the
cross-examination, the State immediately informed the court that
it needed to proffer Ritzer’s re-direct “in an abundance of
caution” (T. 776). Yet, the State never told trial counsel about
this alleged threat before trial or upon production of Ritzer’s
initial statement.
29

“had killed before.” These uncharged acts undoubtedly prejudiced
the jury to convict Mr. Shellito.
No adversarial testing occurred at the guilt phase of Mr.
Shellito’s capital trial.
2.

The district court’s ruling is debatable.

Reasonable jurists could debate the issue of trial counsel’s
ineffectiveness at his capital trial. In rejecting Mr. Shellito’s
claim, the district court found that Eler “had significant
experience in death penalty proceedings.” (Doc. 17, 24; see also
Doc. 17, 32). However, Mr. Shellito’s case was Eler’s first
capital case as lead counsel. Furthermore, Eler has been found
deficient in several cases, including capital cases, and in Mr.
Shellito’s case. See State v. Morrison, 236 So. 3d 204 (Fla.
2016)(reviewing ineffective assistance of counsel of Eler in 1997
capital case); Shellito v. State, 121 So. 3d 445 (Fla. 2013);
Douglas v. State, 141 So. 3d 107 (Fla. 2012)(finding Eler’s
performance to have been deficient in a capital case.); Spargo v.
State, 132 So. 3d 354 (Fla. 1st DCA 2014); see also
https://www.jacksonville.com/news/crime/016-08-24/story/mattshirks-top-assistant-has-been-ineffective-four-times (“Last
December, Rob Smith, an attorney and research fellow at Harvard
University, published a story on Slate.com that listed Eler as
one of the worst defense attorneys in the country.”)(emphasis
added).
Specifically, as to the allegation concerning the testimony
of John Bennett, the district court overlooked the specific error
that trial counsel committed - failing to elicit that Bennett had
30

heard the shot and then seen the silhouette of the individual
move to and enter the driver’s side of the vehicle. Mr. Shellito
agrees with the district court’s conclusion that Bennett’s trial
testimony about the individual entering the driver’s side of the
vehicle was more “certain and beneficial” (Doc. 17, 35), but
there was no reason for trial counsel to fail to elicit the
information about hearing the shot. Because trial counsel’s
entire strategy at the guilt phase was to cast blame on Gill, it
was deficient for trial counsel to fail to elicit the specific
timing Bennett provided during his deposition.
As to trial counsel’s failure to present the testimony of
defense investigator Don Marx to counter the State’s impeachment
of Shellito’s mother, Migdalia, it is surely debatable that trial
counsel cannot be said to have made a strategic decision when he
was unaware that Mrs. Shellito had spoken to his investigator as
it contradicts this Court’s opinions. See Strickland v.
Washington, 466 U.S. 668, 690-1 (1984); Wiggins v. Smith, 539
U.S. 510, 535 (2003).
Also, the district court concluded that a defense of
intoxication was “incompatible with the trial strategy” (Doc. 17,
40). However, trial counsel failed to investigate this defense,
despite numerous red flags that a youthful Shellito was addicted
to and had used alcohol and marijuana on the evening of the
crime. Had trial counsel investigated, he would have discovered a
wealth of evidence that formed the basis for a strong voluntary
intoxication defense, including mental health testimony (See SPCR. 2774, 2781, 2835-6, 2872-3, 2881-2, 2902-3, 2924, T. 470, SPC31

R. 2907-8, 2913-5, Def. Ex. 2, SPC-R. 2963, 3153, 3158-9; SPC-R.
2330, 2469, 2974-5, 3161). And, it would not have been
inconsistent to maintain that Gill committed the crime and not
Shellito (SPC-R. 2570) while also presenting the evidence that
Shellito was too intoxicated to drive or shoot the victim, thus,
it must have been Gill.
Finally, as to trial counsel’s unreasonably opening the door
to highly prejudicial testimony from Theresa Ritzer, the district
court determined that the Florida Supreme Court’s ruling was not
contrary to or an unreasonable application of Strickland (Doc.
17, 42).
The Florida Supreme Court’s decision was based upon an
unreasonable determination of the facts and is clearly debatable.
First, trial counsel testified that he simply “didn’t anticipate”
the State’s rebuttal evidence (SPC-R. 2179). Thus, the notion
that trial counsel made a strategic decision to open the door to
the highly prejudicial testimony makes no sense.
Further, because trial counsel had not been provided with
the report until after he deposed Ritzer, he could have requested
a recess to inquire about the initial statement and why her
testimony was inconsistent with her initial statement. Trial
counsel’s failure to investigate Ritzer’s initial statement
caused him to allow inadmissible and highly prejudicial testimony
to be heard by the jury. In and of itself, this deficiency
undermines confidence in Shellito’s conviction.

32

CONCLUSION
Petitioner submits that certiorari review is warranted to
review the decision of the Eleventh Circuit in this cause.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the foregoing has been
furnished by U.S. Mail, first class postage prepaid to Holly M.
Simcox, Assistant Attorney General, Office of the Attorney
General, The Capitol, PL-01, Tallahassee, FL 32301, on this 13th
day of July, 2021.
Respectfully submitted,
/s/ Martin J. McClain
MARTIN J. MCCLAIN
Fla. Bar No. 0754773
141 N.E. 30th Street
Wilton Manors, FL 33334
Telephone: (305) 984-8344
martymcclain@earthlink.net
Attorney for Mr. Shellito

33

